Case No. 20-6207

In the Supreme Court of the United States
STEVEN COOPER
Petitioner,

v.
BAY COUNTY FLORIDA
BAY COUNTY SHERIFF’S OFFICE
DEPUTY NICHOLAS MACIAS
CODE ENFORCEMENT OFFICER KATHI ASHMAN
SHARON M. WOOSLEY
Respondents,

PETITION FOR REHEARING
ON WRIT OF CERTIORARI TO THE FLORIDA
FIRST DISTRICT COURT OF APPEALS, 1DCA NO - 1D19-165

/s/Steven Cooper. Pro Se
PO Box 18617
Panama City Beach, FL 32417
AdversePossessi onIsNotACrime@,gmail. com
850-312-5243

received
FEB 19 2021

Pursuant to Rule 44 of this Court, petitioner hereby respectfully petitions for
rehearing of this case on substantial grounds not previously presented and limited
to the notification of related cases just filed with this Court arising from the same
First District Court of Appeals of Florida, regarding the same originating
underlying circumstances yet presenting separate and additional related subject
matter issues of which are compounded when considered with the issues presented
in this case. Petitioner respectfully requests this Court considered them all together
when making its final decision as to the merits of this case and those related cases.
The related cases have yet to be numbered and petitioner will file a notice of
related cases upon processing, filing and numbering by the Clerk of this Court.
STATEMENT OF CASE
An adverse possessor, after lawfully establishing adverse possession, was
trespassed then later arrested by the Bay County Sheriffs Office. Mandamus was
sought to compel the Sheriffs Office to perform its duty to enforce and comply
with the laws of Florida of which provide the statutory right to adversely possess
real property, additionally specifying trespass is only applicable when the required
notice form is not submitted and theft is only applicable if the property is leased to
another, again prior to submitting the required form.
The circuit court denied mandamus claiming a clear legal right to compel
law enforcement to enforce the laws of Florida does not exists for a citizen seeking

adherence to a law, despite the existence of FS 95.18 which affords the right,
“because he has not adversely possessed the subject property for the seven-year
period”. Thus, the trial court opined that an adverse possessor does not have the
right through mandamus to compel law enforcement to perform its duty as
prescribed by State Law until ownership is obtained at the end of the statute of
limitations holding period.
Emboldened by this erroneous ruling, and in retaliation to the petitioners
legal action and a written complaint to the agency, the Bay County Sheriff’s Office
sought, obtained an arrest warrant, and arrested the petitioner for grand theft and
criminal mischief simply for exercising his statutory right to adversely possesses
real property and exercising his constitutional rights to petition the government for
redress of grievances.
The trial court erred in denying Mandamus relief requested stating,
“Petitioner fails to make a prima facie case that he has a clear legal right to relief
sought” (despite the statutory right as provided by Florida Statute 95.18) because
“adverse possession without color of title requires seven years of open, continuous,
actual possession”.

This statement alone contradicts the Courts decision and

reasoning for denying relief requested. Actual possession is a requirement. The
right to actual possession is what’s at stake here and is the relief requested. The
Court sites Candler Holdings Ltd. I v. Watch Omega Holdings which, in fact,

actually originates “As stated in Mever v. Law, 287 So.2d 37. 40-41 (Fla. 1973V’
and the Court fails to include the most important words in this case law which is
“there are only two wavs to ACQUIRE LAND by adverse possession” followed by
the exact reason mandamus was requested as “the claimant must show seven years
of open, continuous actual possession”. Mandamus was requested to direct the
respondents to “enforce a clear legal right to the performance of a clear legal duty”
which in this case, was to comply with FS 95.18 and correct its improper doing of
criminally trespassing an adverse possessor when the correct action is for the
owner of record to seek civil ejection or civil trespass in order to quiet title and
remove the cloud of adverse possession.
The trial courts August 13, 2018 Order Denying Mandamus failed to address
the relief sought in the original petition as it erred in its understanding and
application of the actual possessory requirement of FS. 95.18 adverse possession
which requires actual possession, for the statute of limitation seven year period, of
which serves to expire ones right to commence an action to recover real property.
Upon expiration of the seven year holding period, the result is the transfer of title
from the owner of record, to the adverse possessor; NOT the establishment of the
right to then possess the property. In doing so, the trial court directly prejudiced
the petitioners right to possess property under a claim of title exclusive of any
other right in accordance with Florida Statutes §95.Adverse Possession without

Color of Title and his ability to satisfy the statute of limitations seven year holding
period requirement of hostile, open, continuous, and actual possession.

An

adverse possessor must provide clear and convincing positive proof that the land
adversely possessed has been continuous, open, exclusive, and notoriously
possessed for an uninterrupted period of 7 years. Such possession may ripen into
title bv adverse possession. In Florida, it is lawful to acquire land by adverse
possession without color of title when the occupant or possessor is an actual,
continued the occupation of real property under claim of title, exclusive of any
other right, even though not founded on a written instrument. Property is deemed
possessed when it has been usually cultivated or improved or it has been protected
by substantial enclosure. Furthermore, property is deemed possessed when it has
been used for the ordinary use of the occupant, construed to mean a use appropriate
to the character and location of the property.
The actions of the State of Florida are depriving the petitioner not only of his
statutory right to adverse possession, he is being deprived of his constitutional right
to life, liberty, or property without due process of law, and he is being deprived of
his constitutional right to due process according to the rules of the common law
and the equal protection of these laws. The simple mandamus petition to affirm an
adverse possessor’s rights and requirements should not have been treated like a
standard, quiet title action. The petitioner was unlawfully criminally trespassed

i

from the property in his adverse possession and the trial court was asked to, and
should have, declared it wrong given the appropriate remedy is an civil action
trough judicial procedure in order for all parties claiming an interest to have their
day in court to declare and assert their interest for a decision based upon the merits
in accordance with state and case law. The decision is not a discretionary one the
Sherriff s Office is authorized nor tasked to decide irrationally in the field. The
action of criminally trespassing a civil adverse possessor directly infringes upon
his constitutional rights to possess property and due process to assert his interests.
Petitioner respectfully preys this Honorable Court grant the petition for
rehearing and review this case along with the recently filed related cases to review
both the civil and criminal atrocities being committed against him, reverse the
Order Denying Mandamus or issue the Writ of Mandamus on its own to instruct
the respondent Bay County Sherriff s Office to perform its duty of enforcing the
law as mandated, and discharge him from the criminal sham prosecution.

Respectfully submitted,
/s/Steven Cooper. Pro Se

l

r
CERTIFICATION OF GOOD FAITH

Petitioner herby certifies that this rehearing petition is presented in good
faith, not for delay, and on the grounds specified in paragraph 2 of Rule 44.

Respectfully submitted,

/s/Steven Cooper, Pro Se

j

